                                                              O FFICE OF A UDIT S ERVICES , R EGION VI
                                                                 1100 C OMMERCE S TREET , R OOM 632
                                                                                   D ALLAS , TX 75242
March 22, 2012


Report Number: A-06-10-00074

Mr. Vaughn Clark, Director
Oklahoma Department of Commerce
Community Development Division
900 North Stiles Avenue
Oklahoma City, OK 73104

Dear Mr. Clark:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Oklahoma’s Monitoring of CSBG Funds Provided to
Community Action Agencies Under the American Recovery and Reinvestment Act. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414 or contact Ms. Sylvie Witten, Audit Manager, at (512) 339-3071 or through
email at Sylvie.Witten@oig.hhs.gov. Please refer to report number A-06-10-00074 in all
correspondence.
                                           Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services
Enclosure
Page 2 – Mr. Vaughn Clark

Direct Reply to HHS Action Official:

Ms. Jeannie Chaffin
Director, Office of Community Services
Administration for Children and Families
6th Floor, Aerospace Building
370 L’Enfant Promenade, S.W.
Washington, D.C. 20447
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




OKLAHOMA’S MONITORING OF CSBG
 FUNDS PROVIDED TO COMMUNITY
  ACTION AGENCIES UNDER THE
    AMERICAN RECOVERY AND
      REINVESTMENT ACT




                        Daniel R. Levinson
                         Inspector General

                           March 2012
                          A-06-10-00074
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Community Services Block Grant (CSBG) program was reauthorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998 (the CSBG
Act), P. L. No. 105-285, to provide funds to alleviate the causes and conditions of poverty in
communities. The CSBG funds a State-administered network of more than 1,100 local agencies
that create, coordinate, and deliver programs and services to low-income Americans. States
received $681 million in 2009 and $680 million in 2010 through the CSBG program.

The American Recovery and Reinvestment Act of 2009 (the Recovery Act), P.L. No. 111-5,
provided $1 billion in additional CSBG funds for fiscal years (FY) 2009 and 2010.

In Oklahoma, the Oklahoma Department of Commerce (the State agency) administers the CSBG
program. The State agency received an approximate total of $16.6 million in regular CSBG
funds for 2009 and 2010. The Recovery Act provided Oklahoma approximately $12 million in
additional CSBG funds for FYs 2009 and 2010 for its 20 Community Action Agencies (CAA).

Pursuant to section 678(B) of the CSBG Act, the State agency must monitor CAAs by
conducting full onsite reviews at least once during each 3-year period. State agencies conduct
these reviews to determine whether CAAs are meeting the State’s performance goals,
administrative standards, and financial and other requirements.

After the Recovery Act was implemented, the Administration for Children and Families (ACF)
issued guidance (Information Memorandum No. 112) on August 18, 2009, that requires State
agencies to review risk assessments CAAs conduct on themselves and provide the risk
assessments along with the State agencies’ comments to the Office of Community Services.

Office of Management and Budget Memorandum M-09-21 says that prime recipients (States) are
ultimately responsible for reporting all of the data required by section 1512 of the Recovery Act.
States are required to:

       implement internal control measures as appropriate to ensure that accurate and complete
       information is reported and

       perform data quality reviews for material omissions and/or significant reporting errors,
       make appropriate and timely corrections to its data, and work with subrecipients
       to address data quality issues.

OBJECTIVE

Our objective was to determine whether the State agency established adequate internal controls
for assessing and monitoring CSBG funds provided to CAAs under the Recovery Act.




                                                i
SUMMARY OF FINDINGS

The State agency did not establish adequate internal controls for assessing and monitoring CSBG
funds provided to CAAs under the Recovery Act. Specifically, the State agency did not:

       have policies or procedures in place to effectively monitor CAAs administering CSBG
       funds provided by the Recovery Act and

       accurately report Recovery Act information.

Without adequate internal controls, Recovery Act and CSBG program funds may be at risk for
fraud, waste, and abuse by CAAs.

RECOMMENDATIONS

We recommend that the State agency:

       develop and implement adequate written policies and procedures to effectively monitor
       CAAs administering CSBG funds and

       ensure that the CSBG funds provided by the Recovery Act were reported accurately on
       the Federal and State Recovery Act Web sites.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the State agency concurred with one finding, partially
concurred with two findings, disagreed with two findings, and neither agreed nor disagreed with
one finding. The State agency described corrective actions it had taken to address the findings
with which it concurred or partially concurred. The State agency’s comments are included in
their entirety as the Appendix. Nothing in the State agency’s comments caused us to change our
findings or recommendations.




                                               ii
                                                  TABLE OF CONTENTS


INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Federal Community Services Block Grant Program .....................................1
              Office of Community Services ......................................................................1
              Community Services Block Grant Program in Oklahoma .............................1
              Office of Inspector General Audits ................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          INADEQUATE MONITORING POLICIES AND PROCEDURES........................3
               Client Eligibility.............................................................................................3
               Approval of Budget Modifications ................................................................4
               Timeliness of Monitoring ..............................................................................4
               Monitoring Reports and Corrective Action Plans ..........................................4

          DATA QUALITY AND REPORTING.....................................................................5
               Disbursement Data .........................................................................................5

          RECOMMENDATIONS ...........................................................................................6

          STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
           RESPONSE..............................................................................................................6

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                        INTRODUCTION

BACKGROUND

Federal Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was reauthorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998 (the CSBG
Act), P.L. No. 105-285, to provide funds to alleviate the causes and conditions of poverty in
communities. The CSBG funds a State-administered network of more than 1,100 local agencies
that create, coordinate, and deliver programs and services to low-income Americans. States
received $681 million in 2009 and $680 million in 2010 through the CSBG program.

The American Recovery and Reinvestment Act of 2009 (the Recovery Act), P.L. No. 111-5,
provided $1 billion in additional CSBG funds for fiscal years (FY) 2009 and 2010. As with
annually appropriated CSBG funds, Recovery Act funds could have been used to reduce poverty,
to revitalize low-income communities, and to help low-income families in rural and urban areas
become self-sufficient.

Office of Community Services

The U.S. Department of Health and Human Services (HHS), Administration for Children and
Families (ACF), Office of Community Services (OCS), is responsible for overseeing the CSBG
program. States and territories submit applications annually or biannually to OCS that include
(1) a statement of goals and objectives, (2) information on the specific types of activities to be
supported, (3) areas and categories of individuals to be served, and (4) criteria and methods for
distributing funds to local agencies.

Community Services Block Grant Program in Oklahoma

In Oklahoma, the Oklahoma Department of Commerce (the State agency) administers the CSBG
program. The State agency received an approximate total of $16.6 million in regular CSBG
funds for 2009 and 2010. The Recovery Act provided the State with approximately $12 million
in additional CSBG funds for FYs 2009 and 2010 for its 20 Community Action Agencies (CAA).
Of the $28.6 million, the State provided approximately $26.8 million to the CAAs. The State
retained approximately $1.8 million to monitor the CAAs for compliance with applicable Federal
requirements and achievement of performance goals, as required by 45 CFR § 92.40(a).

The CAAs provide Oklahoma residents with services related to employment, income
management, housing assistance, nutrition, and health. The CAAs use the majority of CSBG
funding for planning, coordination, and administrative support for activities that are difficult to
fund through other program grants.




                                                  1
Office of Inspector General Audits

On December 31, 2009, we issued a memorandum1 to ACF alerting it that CSBG program funds
made available under the Recovery Act might be at risk for fraud, waste, and abuse at certain
CAAs that State agencies designated as “vulnerable” or “in crisis.” We reviewed ACF records in
November 2009 and identified 20 CAAs in 16 States that the States had reported as vulnerable or
in crisis as of October 30, 2009. These 20 CAAs were scheduled to receive a total of $44.9
million in Recovery Act funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency established adequate internal controls
for assessing and monitoring CSBG funds provided to CAAs under the Recovery Act.

Scope

Our review covered the period April 1, 2009, through March 31, 2010. We reviewed and
assessed only those State agency internal controls considered necessary to achieve our audit
objective.

We performed our fieldwork at the State agency in Oklahoma City, Oklahoma, during May and
August 2010.

Methodology

To accomplish our objective, we:

        reviewed applicable Federal laws, regulations, and policies;

        reviewed the State’s application and plan for Recovery Act funds;

        reviewed the State agency’s files related to the full onsite reviews of all the CAAs;

        reviewed the CAAs’ annual audit reports for FYs ended 2007 through 2009;

        reviewed risk assessments from October 2009 for all the CAAs; and

        discussed our preliminary findings with the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
1
 Office of Inspector General, Alert: Community Service Block Grant Recovery Act Funding for Vulnerable and In-
Crisis Community Action Agencies (A-01-09-02511). Available online at:
http://oig.hhs.gov/oas/reports/region1/10902511.pdf.

                                                      2
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency did not establish adequate internal controls for assessing and monitoring CSBG
funds provided to CAAs under the Recovery Act. Specifically, the State agency did not:

       have policies or procedures in place to effectively monitor CAAs administering CSBG
       funds provided by the Recovery Act and

       accurately report Recovery Act information.

Without adequate internal controls, Recovery Act and CSBG program funds may be at risk for
fraud, waste, and abuse by CAAs.

INADEQUATE MONITORING POLICIES AND PROCEDURES

Section 678(B) of the CSBG Act requires States to monitor local agencies to determine whether
they meet performance goals, administrative standards, and financial management and other
State requirements. In addition, ACF Information Memorandum No. 112 requires shared
accountability and responsibility for internal controls at all organization levels in a partnership
among Federal, State, and local organizations. Internal controls help managers achieve desired
results through effective stewardship of public resources. Such interrelated controls comprise
the plans, methods, and procedures used to meet missions, goals, and objectives and support
performance-based management. In addition, internal controls should provide reasonable
assurance that an organization achieves its objectives of (1) effective and efficient operations, (2)
reliable reporting, and (3) compliance with applicable laws and regulations.

The State agency did not have adequate policies and procedures in place to effectively monitor
the CAAs’ administration of the CSBG funds provided by the Recovery Act. Specifically, the
State agency did not (1) adequately document its review of the CAAs’ determination of client
eligibility, (2) approve budget modification requests in a consistent manner, (3) monitor all of its
CAAs annually as required by the State plan, and (4) provide monitoring reports, which included
corrective action plans, to the CAAs in a timely manner.

Client Eligibility

The Recovery Act allowed States and the CAAs that administer the CSBG program at the local
level to increase individual income eligibility requirements for program services provided during
FYs 2009 and 2010 up to 200 percent of the official poverty guidelines set by HHS. This
eligibility adjustment reflected an increase from the 125-percent rate provided in section 673(2)
of the CSBG Act and applied to all CSBG services that States and CAAs furnished during FYs
2009 and 2010, including those provided through other CSBG appropriations.


                                                  3
As part of its monitoring of the CSBG program, the State agency did not adequately document
its review of the CAAs’ determination of client eligibility. We could not determine from the
State agency’s monitoring reviews whether the clients it reviewed for eligibility received
services from the CSBG programs and whether the State agreed with the CAAs’ determination
of eligibility. As such, we could not determine whether the State agency ensured that CAAs
provided services to eligible clients.

Approval of Budget Modifications

The State agency required CAAs to submit budget modification requests to program monitors.
However, the program monitors did not have written procedures for approving modifications.
Program monitors reviewed modification narratives and verified the updated calculations.
Program monitors told us that sometimes they obtained modification approvals from the program
director, either verbally or by email.

A review of files for selected CAAs showed that many budget modification requests did not have
narratives or supporting documentation explaining the purpose of the modifications. For
example, the State agency approved salary increases for three employees at one CAA without
adequate justification. The total budgeted cost of the increases, from June 2009 through
September 2010, was $23,753, based on 10- to 20-percent increases for each employee.
However, job descriptions for the three employees—the executive secretary, the substance abuse
director, and a case management coordinator—did not cite Recovery Act duties or other
additional duties that would have justified salary increases.

Timeliness of Monitoring

Pursuant to Oklahoma’s FY 2009-2010 Community Services Block Grant/American Recovery
and Reinvestment Act State Plan (State plan), the State agency “… performs monitoring and
evaluation activities of all programs and services administered by the agency [CAA] and
supported by CSBG funds, once a year.”

The State agency did not monitor all of its CAAs annually as required by the State plan. At the
time of our site visit in May 2010, the State agency had not performed a monitoring review for 1
of its 20 CAAs for approximately 20 months.

Monitoring Reports and Corrective Action Plans

Pursuant to The Liaison Manual (the Manual): “Per the CET [Citizens Empowerment Team]
policy, the official monitoring report must be issued within 30 days from the exit interview.”
The Manual also states: “All corrective actions must be at least addressed with a corrective
action or a timeline for a corrective action within 30 days of the receipt of the report. Once all
corrective actions have been accepted and other information has been submitted and approved,
the monitoring can be closed.”

The State agency did not consistently provide CAAs with monitoring reports, which included
corrective action plans, within 30 days of the date of the monitoring review. For three

                                                 4
monitoring reviews completed in 2009, the State agency issued monitoring reports with
corrective action plans from 4 to 8 months after the monitoring reviews occurred. If the State
agency does not issue monitoring reports in a timely manner, the CAAs can not address the
issues documented on the corrective action plans in a timely manner; thus, Recovery Act and
CSBG program funds could be put at risk for fraud, waste, and abuse.

DATA QUALITY AND REPORTING

Section 1512 of the Recovery Act requires recipients of certain Recovery Act funds to report to
the applicable Federal agency not later than 10 days after the end of each calendar quarter (1) the
total amount of Recovery Act funds received and the amount that was expended or obligated; (2)
a detailed list of all projects for which Recovery Act funds were expended or obligated,
including an estimate of jobs created and retained; and (3) detailed information on payments to
subrecipients and vendors.

OMB Memorandum M-09-21 says that prime recipients—States—are ultimately responsible for
reporting all of the data required by section 1512 of the Recovery Act. It requires States to:

       implement internal control measures as appropriate to ensure accurate and complete
       information and

       perform data quality reviews for material omissions and/or significant reporting errors,
       make appropriate and timely corrections to State data, and work with subrecipients to
       address data quality issues.

Disbursement Data

For the quarter January 1 through March 31, 2010, the State agency reported inaccurate CSBG
Recovery Act disbursement information on the Federal Recovery.gov Web site and the State of
Oklahoma’s Recovery & Reinvestment Web site and incorrectly included CSBG Recovery Act
award data for three Community Development Block Grant (CDBG) recipients. Specifically, the
State agency overstated the amount of CSBG disbursements by $113,997 and reported
$2,187,835 in Recovery Act awards for three CDBG program recipients under the CSBG
program. Of the $113,997 in overstated disbursements:

       $73,300 was for payments made to three CAAs after March 31, 2010,

       $24,338 was for reported expenses rather than disbursements, and

       $16,359 was for net overstated and understated disbursements for six CAAs.

The State agency did not have adequate procedures to ensure that data reported on the Federal
Recovery.gov Web site and the State of Oklahoma’s Recovery & Reinvestment Web site were
accurate.




                                                 5
RECOMMENDATIONS

We recommend that the State agency:

        develop and implement adequate written policies and procedures to effectively monitor
        CAAs administering CSBG funds and

        ensure that the CSBG funds provided by the Recovery Act were reported accurately on
        the Federal and State Recovery Act Web sites.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the State agency concurred with one finding, partially
concurred with two findings, disagreed with two findings, and neither agreed nor disagreed with
one finding. The State agency described corrective actions it had taken to address the findings
with which it concurred or partially concurred. The State agency’s comments are summarized
below and included in their entirety as the Appendix. Nothing in the State agency’s comments
caused us to change our findings or recommendations.

Inadequate Monitoring Policies and Procedures

State Agency Comments

The State agency disagreed with our finding, stating that it had provided numerous documents
for us to review (e.g., manuals and reports).

Office of Inspector General Response

We are not disputing the State agency’s statement that it provided us the documentation listed in
its response. However, the documentation does not show that the State agency had adequate
policies and procedures for effectively monitoring the CAAs’ administration of CSBG funds
provided by the Recovery Act.

Client Eligibility

State Agency Comments

The State agency disagreed with our finding, stating that it had documentation of client
eligibility testing and that client eligibility is tested for all funded programs as part of the
monitoring review.

Office of Inspector General Response

We are not disputing the State agency’s statement that client eligibility is tested as part of its
monitoring review of CAAs. However, the State agency did not adequately document the

                                                    6
CAAs’ determination of client eligibility. Thus, we could not determine whether the State
agency ensured that CAAs provided services to eligible clients or whether the State agency
approved the CAAs’ process for determining eligibility.

Approval of Budget Modifications

State Agency Comments

The State agency partially concurred with our finding. The State agency disagreed with our
finding that it did not have written procedures for processing budget modifications. The State
agency agreed that it may have failed to document the discussions between the CAAs and their
program monitors. However, the State agency said that it did not process the budget
modifications without a justification.

Office of Inspector General Response

At the time of our review, we did not identify nor were we provided written procedures used for
processing budget modifications. The program monitors said that they did not have written
procedures for approving budget modifications. Additionally, we disagree that the CAAs’
budget modifications were not processed without a justification. During our review of master
CAA files located in the State agency’s accounting department for selected CAAs, we identified
several budget modification requests that did not have the required narratives or supporting
documentation justifying the modifications.

Timeliness of Monitoring

State Agency Comments

The State agency concurred with our finding.

Monitoring Reports and Corrective Action Plans

State Agency Comments

The State agency partially concurred with our findings. For monitoring reviews completed in
2009, the State agency agreed that it had issued the monitoring reports outside the Manual’s 30-
day requirement but that there were only two instances.

Office of Inspector General Response

Based on the monitoring reports the State agency provided to us at the time of our review, we
identified three instances involving 2009 monitoring reviews in which the State agency had
issued monitoring reports to CAAs outside the Manual’s 30-day requirement.




                                                7
Data Quality and Reporting

State Agency Comments

The State agency said that it neither agreed nor disagreed with the finding. The State agency
stated that it had complied with all section 1512 reporting requirements and with OMB
Memorandum M-09-21. The State agency said that it reports information to another agency to
be included on the Federal Recovery.gov Web site and the State of Oklahoma’s Recovery &
Reinvestment Web site. The State agency said that it believes that its data was reported
accurately but that it can not control what the Web sites report.

Office of Inspector General Response

The State agency’s contract files, which included the contract award and date, monthly expense
reports provided by the CAAs, and claim documentation, did not support the disbursement data
reported on the Federal Recovery.gov Web site and the State of Oklahoma’s Recovery &
Reinvestment Web site. In addition, the director of programs in the State agency’s Operations
Group agreed with us that the State agency had reported inaccurate CSBG Recovery Act
disbursement information on the Web sites.

Pursuant to OMB Memorandum M-09-21, the State agency is ultimately responsible for
reporting all of the data required by section 1512 of the Recovery Act. It requires the State
agency to:

       implement internal control measures as appropriate to ensure accurate and complete
       information and

       perform data quality reviews for material omissions and/or significant reporting errors,
       make appropriate and timely corrections to State data, and work with subrecipients to
       address data quality issues.

The State agency did not have internal controls in place, as required by OMB Memorandum M-
09-21, to ensure that the data reported on the Federal Recovery.gov Web site and the State of
Oklahoma’s Recovery & Reinvestment Web site were accurate.




                                                 8
APPENDIX
                                  Page 1 of 4



APPENDIX: STATE AGENCY COMMENTS
Page 2 of 4
Page 3 of 4
Page 4 of 4
